DOE/IG-0470




          AUDIT
         REPORT




                                    FOLLOW-UP AUDIT OF HEALTH
                                       BENEFIT COSTS AT THE
                                  DEPARTMENT’S MANAGEMENT AND
                                     OPERATING CONTRACTORS




                                              MAY 2000




     U.S. DEPARTMENT OF ENERGY
    OFFICE OF INSPECTOR GENERAL
     OFFICE OF AUDIT SERVICES
                                             May 11, 2000



MEMORANDUM FOR THE SECRETARY

FROM:                 Gregory H. Friedman (Signed)
                      Inspector General

SUBJECT:              INFORMATION: Audit Report on "Follow-up Audit of Health Benefit Costs at
                      the Department’s Management and Operating Contractors"

BACKGROUND

In Calendar Year (CY) 1998, the Department of Energy (Department) spent about $480 million to
provide health benefits for employees of its contractors. In 1994, the Office of Inspector General
(OIG) evaluated the system in place at that time to determine if contractor employee health benefit
costs were reasonable. In our June 1994 report, DOE/IG-0350, Audit of Health Benefit Costs at the
Department's Management and Operating Contractors, we reported that the Department paid more
than its fair share of management and operating contractors’ employee health benefit costs. We
recommended that the Department (1) publish quantitative measurement techniques or standards for
use in testing the reasonableness of contractor employees' health benefit costs, (2) require tests of the
reasonableness of employees' health benefit costs to be performed periodically, and (3) provide
guidance concerning specific health care provisions in Management and Operating (M&O) contracts.
In response to the audit recommendations, the Department issued Order 350.1, Contractor Human
Resource Management Programs, to require that contractors use one of two quantitative measurement
techniques to periodically evaluate the reasonableness of employee benefit programs, and to require
model contract language addressing employee benefit program features. Health benefit plans are a
part of overall contractor employee benefit programs. In addition, the Department increased its staff of
benefit experts, prepared a training manual, and held training on Order 350.1 at Departmental field
sites.

The objective of this audit was to determine whether the Department’s actions in response to Report
DOE/IG-0350 have reduced employee health benefit costs.

RESULTS OF AUDIT

The Department’s actions in response to the prior audit have significantly reduced employee health
benefit costs. Several contractors implemented actions that substantially reduced overall costs while
maintaining competitive benefit programs for employees. However, despite these improvements, the
Department continued to pay substantially more than competitive market benchmarks per capita for
employee health benefits in CY 1998. This occurred because the Department did not require
contractors to bring health benefit plan costs in line with competitive market benchmarks and industry
practices. Had the Department required the three contractors we examined to bring health benefit plan
costs in line with competitive market benchmarks and industry practices, the Department could have
saved $33 million in employee health benefit costs in CY 1998.
                                                  -2-


MANAGEMENT REACTION

Management did not concur with the finding and recommendations. Management stated that much of
the report is incorrectly focused on demonstrating that a facet of the overall benefit issue has not been
aggressively pursued by the field offices reviewed while ignoring that the overall cost of contractor
benefit programs have been reduced Departmentwide. Also, management contends that the
recommendations are inconsistent with Federal and Departmental acquisition regulations and would
unduly restrict the Department's ability to exercise prudent business judgement.

The results of this audit are based upon the quantitative measurement techniques contained in a U.S.
Chamber of Commerce study, which the Department provided its contractors as an option in
Order 350.1, and the results of studies performed for the Department by a national consulting firm. All
of the studies produced similar results, suggesting that the Department was paying more than
competitive benchmarks per capita for contractor health care benefits. We believe the recommendations
are consistent with Federal and Departmental acquisition regulations and would not unduly restrict the
Department's ability to exercise prudent business judgement. The recommendations would supplement
existing regulations and provide contracting officers with better tools for evaluating the reasonableness
of health benefit costs.

Attachment

cc: Under Secretary
    Deputy Secretary
    Acting Under Secretary for Nuclear Security/Administrator for Nuclear Security
FOLLOW-UP AUDIT OF HEALTH BENEFIT COSTS AT THE
DEPARTMENT'S MANAGEMENT AND OPERATING CONTRACTORS

TABLE OF
CONTENTS



              Overview

              Introduction and Objective ..........................................................1

              Conclusions and Observations.................................................. 2


              Reasonableness of Health Benefit Costs

              Details of Finding.......................................................................3

              Recommendations and Comments ...........................................7


              Appendix

              Scope and Methodology...........................................................11
OVERVIEW

INTRODUCTION AND   The Department's Office of Contractor Human Resource Management
OBJECTIVE          is responsible for providing heads of site contracting activities with
                   policies and procedures to assist them in assessing whether contractors'
                   health benefit costs are reasonable. The Department spent about
                   $480 million for its contractors' employee health benefit programs in
                   CY 1998.

                   The OIG issued a report on the Audit of Health Benefit Costs at the
                   Department's Management and Operating Contractors (DOE/IG-0350)
                   in June 1994. The objective of the audit was to determine whether the
                   Department's share of costs for contractor employee health benefits was
                   reasonable. The audit concluded that the Department paid more than its
                   fair share of employee health benefit costs. The OIG recommended
                   that the Department, (1) publish quantitative measurement techniques
                   or standards for use in testing the reasonableness of contractor
                   employees' health benefit costs; (2) require tests of the reasonableness
                   of employees' health benefit costs to be performed periodically, and
                   (3) provide guidance concerning specific health care provisions in
                   M&O contracts.

                   In response to the prior audit, the Department benchmarked medical
                   benefits and costs using outside, independent consultants, and issued
                   Order 350.1, Contractor Human Resource Management Programs. The
                   order requires that heads of contracting activities conduct evaluations of
                   the reasonableness of employee benefit programs. It also requires that
                   contractors develop and implement employee benefit programs to
                   assure that costs are allowable and reasonable in accordance with
                   Federal and Departmental acquisition regulations; periodically use
                   professionally recognized measures to compare their benefit programs
                   to other organizations; develop corrective action plans to achieve
                   conformance when benefit values or costs vary from the benchmark by
                   more than 5 percent; and submit the plan to the contracting officer for
                   approval. Health benefit plans are a part of overall contractor employee
                   benefit programs. In addition, the Department increased its staff of
                   benefit experts, prepared a training manual, and held training on Order
                   350.1 at Departmental field sites.

                   In addition to Report DOE/IG-0350, the OIG issued Report
                   ER-B-99-03, Westinghouse Savannah River Company's Health Benefit
                   Plan, in January 1999. The audit concluded that a portion of
                   Westinghouse Savannah River Company's CYs 1997 and 1998 health
                   benefit plan cost was unreasonable because the contractor paid health
                   care providers in the Aiken, South Carolina area at rates that were


Page 1                                                         Introduction and Objective
                 higher than the standard Blue Cross/Blue Shield - South Carolina rates
                 for the area. The Savannah River Operations Office did not concur with
                 the audit conclusions. However, it did agree to limit future
                 reimbursements for health benefits to the standard rates for the area.

                 The objective of this audit was to determine whether the Department's
                 actions in response to Report DOE/IG-0350 have reduced employee
                 health benefit costs.

CONCLUSION AND   The Department's actions in response to the prior audit have significantly
OBSERVATIONS     reduced employee health benefit costs. Several contractors implemented
                 actions that substantially reduced overall costs while maintaining
                 competitive benefit programs for employees. For example, between
                 1996 and 1998, Westinghouse Savannah River Company increased the
                 proportion of health care costs paid by the employee from 12 percent to
                 14 percent and competitively awarded a new subcontract for the
                 administration of its managed health care system. As a result of these
                 and other actions, Westinghouse Savannah River Company reduced
                 health benefit costs for active employees by about $8 million in 1998.

                 In terms of current health care cost containment efforts, these were
                 positive steps. However, the Department continued to pay substantially
                 more than competitive market benchmarks per capita for employee
                 health benefits in CY 1998. This occurred because the Department did
                 not require contractors to bring employee health benefit plans in line
                 with competitive market benchmarks and industry practices. Had the
                 Department required the three contractors we examined to bring health
                 benefit plan costs in line with competitive market benchmarks and
                 industry practices, the Department could have saved about $33 million in
                 employee health benefit costs in CY 1998.

                 The audit identified issues that management should consider when
                 preparing its yearend assurance memorandum on internal controls.




                                                             (Signed)
                                                      Office of Inspector General




Page 2                                                  Conclusions and Observations
REASONABLENESS OF HEALTH BENEFIT COSTS

Positive Steps Were    The Department took positive steps toward reducing employee health
Taken                  benefit costs. The Office of Procurement and Assistance Management
                       hired a national consulting firm to perform detailed health benefit
                       reviews at five of the Department’s largest M&O contractors in 1995.
                       The results confirmed the prior OIG audit finding and determined that
                       the Department could save $36 million annually if the contractors
                       brought employees’ medical benefits in line with competitive market
                       benchmarks. The consultants identified several opportunities to reduce
                       health plan costs and still leave intact an attractive health benefit
                       package for contractor employees. In 1996, the Department contracted
                       with the same consulting firm for a per capita cost analysis of all M&O
                       contractors’ health benefit programs. The consultants concluded that
                       the average contractor’s costs for active employees exceeded
                       competitive market benchmarks by about $89 million annually using
                       national benchmarks and about $119 million annually using regional
                       benchmarks.

                       Between 1996 and 1998, the Department and its contractors
                       implemented several cost-reduction measures recommended by the
                       consultants. For example, Westinghouse Savannah River Company
                       increased the proportion of health care costs paid by active employees
                       from 12 percent to 14 percent, and competitively awarded a new
                       subcontract for the administration of its managed care system for less
                       overall costs. Also, Lockheed Martin Energy Systems increased its
                       employees’ contributions from 9 percent to 12 percent, modified the
                       preferred-provider-organization plan to a point-of-service plan utilizing
                       a primary care physician to manage patient care, and eliminated costly
                       health maintenance organization options.

                       The heads of field elements reported that the actions taken by their
                       contractors generated annual savings of $66.2 million in 1997 and
                       $55.7 million in 1998. We could not obtain sufficient data to verify the
                       savings reported. However, we determined that the actions taken by
                       Westinghouse Savannah River Company reduced employees’ health
                       care costs by about $8 million in 1998.

Health Benefit Costs   The Department’s actions since the prior audit were only partially
Still Exceed           effective in reducing contractor employee health benefit costs. The
Competitive Market     health benefit cost per capita for contractor employee health plans is
Benchmarks             still substantially higher than competitive market benchmarks.
                       According to a study by the U.S. Chamber of Commerce, the
                       benchmark for employers’ contributions to employee health benefits
                       was about $2,232 per employee in CY 1998. By comparison, the
                       average cost per employee for Westinghouse Savannah River Company

Page 3                                                                       Details of Finding
                             was $3,213; the average cost per employee for the University of
                             Chicago at the Argonne National Laboratory was $3,232; and the
                             average cost per employee for Lockheed Martin Energy Systems at
                             the Y-12 Plant was $5,356. Thus, the Department’s costs exceeded
                             the Chamber of Commerce's benchmark by about 44 percent at
                             Westinghouse Savannah River Company, 45 percent at Argonne
                             National Laboratory, and 140 percent at Lockheed Martin Energy
                             Systems.

Corrective Action Required   The prior OIG report on contractors’ health benefit plan costs
the Use of Quantitative      determined that the Department’s costs were excessive because
Measurement Techniques       contracting officers were not required to evaluate and approve health
                             benefit plans using quantitative measurement techniques or
                             standards. To correct this concern, the Department benchmarked
                             medical benefits and costs using outside, independent consultants,
                             and issued Order 350.1 to require that heads of contracting activities
                             assure that employee benefit program costs are allowable and
                             reasonable in accordance with Federal and Departmental acquisition
                             regulations. Additionally, the order requires that contractors
                             periodically use professionally recognized measures to compare their
                             employee benefit programs to other organizations; develop a
                             corrective action plan to achieve conformance when benefit values or
                             costs vary from the study benchmark by more than 5 percent; and
                             submit the corrective action plan to the contracting officer for
                             approval.

                             Order 350.1 required the heads of contracting activities to evaluate
                             the reasonableness of overall employee benefit program costs in
                             accordance with Federal Acquisition Regulation (FAR) 31.205-6 and
                             Department of Energy Acquisition Regulation (DEAR) 970.3102-2.
                             The regulations require that total employee compensation be
                             reasonable for the work performed. The FAR 31.205-6(b) states that
                             compensation will be considered reasonable if each of the allowable
                             elements making up the employee’s compensation package is
                             reasonable. When a specific compensation item is challenged, the
                             contracting officer will consider the magnitude of other
                             compensation elements, which may be lower than would be
                             considered reasonable in themselves.

                             The order states that contractors’ benefit programs would be
                             considered reasonable if they do not exceed the benchmark, using
                             either the Chamber of Commerce Study or the Value Study method,
                             by more than 5 percent. The benchmark used in the Chamber of
                             Commerce Study is the average cost to the employer of benefits per


Page 4                                                                         Details of Finding
                            employee for all major U.S. industries. This benchmark is then
                            compared to the average employer contribution cost of the
                            Department’s contractors to evaluate cost reasonableness. The Value
                            Study, on the other hand, does not evaluate the cost of benefits to the
                            employer. Instead, the Value Study is an actuarial study that uses a
                            benchmark, called the net benefit value, to measure the relative
                            worth of competing programs to employees, regardless of the cost of
                            the programs to the employer. If the overall benefit package exceeds
                            the benchmark selected to evaluate the benefit program by more than
                            5 percent, the Department requires that the contractor prepare a
                            corrective action plan to bring its benefit program back to reasonable
                            levels.

Contractors Were Not        The Department paid more than competitive market benchmarks per
Required to Develop Plans   capita for employee health benefits because it did not require
Consistent with             contractors to bring health benefit costs in line with competitive
Competitive Market          market benchmarks or industry practices. The Department
Benchmarks                  considered the test of reasonableness at FAR 31.205-6 and
                            DEAR 970.3102-2 to be sufficient for determining the
                            reasonableness of overall employee benefit costs, and it considered
                            the use of competitive market benchmarks or industry practices
                            inappropriate for evaluating the reasonableness of employee health
                            benefit costs.

                            The evaluations of overall employee benefit programs that were
                            performed by the contractors reviewed could draw no conclusions
                            about whether costs exceeded competitive market benchmarks.
                            Therefore, the evaluations would not trigger the preparation of
                            corrective action plans to reduce costs to reasonable levels.
                            Departmental Order 350.1 provided contractors with an option to use
                            either the Chamber of Commerce Study or the Value Study method
                            to evaluate benefit programs. Based on the results of this audit, we
                            found that the Chamber of Commerce Study method, because it
                            includes the employer's actual cost in its calculations, is a valid basis
                            for evaluating benefit program costs. In contrast, the Value Study
                            method has an inherent weakness in that it disregards the actual cost
                            to the employer. For this reason, we believe that the Value Study
                            method should not be used as the primary basis for evaluating these
                            programs. Yet, all of the contractors reviewed selected the Value
                            Study method to evaluate the reasonableness of their overall
                            employee benefit programs. In each case, the Value Study method
                            concluded that the value of the contractors' benefit programs to its
                            employees was within the 5 percent range of acceptability. The
                            order did not require the contractors to take any further action.

Page 5                                                                          Details of Finding
         If the Chamber of Commerce Study method had been used to
         evaluate the reasonableness of employee benefit program costs, all of
         the contractors reviewed would have exceeded the 5 percent range of
         acceptability. According to the 1999 Chamber of Commerce Study,
         the benchmark for overall employer benefit costs was estimated to be
         $14,655 per employee per year. By comparison, the average
         CY 1998 cost was $18,087 at Westinghouse Savannah River
         Company, $19,406 at the University of Chicago at the Argonne
         National Laboratory, and $21,251 at Lockheed Martin Energy
         Systems at the Y-12 Plant. This was 23 percent, 32 percent, and
         45 percent above the Chamber of Commerce benchmark,
         respectively. Based on current Department policy, such findings
         would have required the contractors to reduce costs to reasonable
         levels.

         During the audit, the Office of Procurement and Assistance
         Management questioned the validity of the Chamber of Commerce
         Study, stating that it was not representative of the demographics,
         election choices, or risk factors associated with the Department’s
         contractor employees. Management stated that the Department
         identified appropriate benchmarks by hiring the consulting firm in
         1995 and 1996 to conduct benefit cost analyses on a contract-by-
         contract basis using national and regional benchmarks. Management
         contended that the results of these studies gave contracting officers
         the tools needed to identify areas where additional actions could be
         taken to better manage health care costs.

         We agree that the results of the consultants’ studies gave contracting
         officers the tools needed to identify opportunities to better manage
         health care costs. However, we found no evidence that the study
         results were used to develop plans to bring any of the contractors’
         health plan costs into line with the benchmarks used in the studies.
         Also, despite the consultants’ findings that corrective actions were
         needed at each of the contractors reviewed, none of the contractors
         were required to develop corrective action plans or implement any of
         the consultant’s recommendations.

         Even if the Chamber of Commerce Study method or other cost
         benchmarks had been used, there was no requirement in the order to
         assure that the excessive costs of the contractors’ health benefit plans
         would be reduced. The order only required that overall benefit costs
         be evaluated. It was silent on whether or not to evaluate the
         reasonableness of any individual benefit plan costs, including the


Page 6                                                       Details of Finding
                              costs of employee health benefit plans. It was also silent on the
                              conditions that would trigger a mandatory corrective action plan for
                              any specific benefit plan. For example, if overall benefit costs were
                              reduced to 5 percent over competitive market benchmarks, and the
                              costs of all benefit plans, except health benefit plans, matched
                              competitive market benchmarks, the order would allow health
                              benefit costs to be 29 percent above competitive market benchmarks
                              without requiring a corrective action plan of any kind.

Department Could Have         Had the Department required the three contractors we examined to
Avoided $33 Million in 1998   bring health benefit plan costs in line with competitive market
                              benchmarks, using either the benchmarks published in the Chamber
                              of Commerce Study or those used by its national consulting firm, the
                              Department could have avoided $33 million in employee health care
                              costs in CY 1998.

RECOMMENDATIONS               We recommend that the Director, Office of Procurement and
                              Assistance Management amend Departmental Order 350.1 to require
                              that:

                              1. Contracting officers periodically determine the reasonableness of
                                 contractors’ health benefit costs, and overall benefit program
                                 costs, using the Chamber of Commerce Study or other cost
                                 benchmarks published by national consulting firms; and

                              2. Contractors develop corrective action plans to reduce health
                                 benefit costs to within the 5 percent range above competitive
                                 market benchmarks.

MANAGEMENT                    Management did not concur with the finding and recommendations.
REACTION                      Management stated that much of the report is incorrectly focused on
                              demonstrating that a facet of the overall benefit issue has not been
                              aggressively pursued by the field offices reviewed while ignoring
                              that the overall cost of contractor benefit programs have been
                              reduced Departmentwide.

                              Management disagreed with Recommendation 1, stating that the
                              recommendation requires changes to the Department’s Order that are
                              inconsistent with the FAR and DEAR. Neither the FAR nor the
                              DEAR cost principles contemplate the singling out of one element of
                              compensation, nor do either define the standard for reasonableness as
                              adherence to a national average cost. FAR and DEAR cost
                              principles treat the determination of reasonableness as a complex,


Page 7                                                       Recommendations and Comments
                   multi-variable analysis, based on qualitative judgment as well as
                   quantitative analysis. Requiring the Department to rigidly adhere to
                   a single quantitative standard as a part of this determination,
                   regardless of the source of that standard, and without reference to the
                   rest of the elements of total compensation, is myopic and conflicts
                   with Federal and Departmental regulations. Further, it will seriously
                   undermine Departmental contractors’ ability to recruit and retain
                   sufficient and appropriate human resources during an unprecedented
                   period of scarcity in the U.S. labor market that based on current
                   demographic projections is expected to continue into the future.

                   Management also disagreed with Recommendation 2. Management
                   stated that required adherence to an average annual national health
                   benefit cost is a Departmental policy issue that requires stakeholder
                   input. Stakeholders include but are not limited to the DOE Field
                   Management Council, Principal Secretarial Officers, commercial and
                   non- and not-for-profit organizations likely to contract with the
                   Department for management and operation of Department-owned
                   facilities, the Office of General Counsel, the Commission on
                   Maintaining United States Nuclear Weapons Expertise, and members
                   of Congress. Current Federal and Departmental policy require the
                   use of FAR and DEAR compensation cost principles, and permit the
                   use of a much broader standard of cost reasonableness. In a rapidly
                   changing operating environment, flexibility to use prudent business
                   judgement is appropriate and necessary to meet mission
                   requirements. It was management’s view that implementation of
                   Recommendation 2 would unnecessarily restrict the Department’s
                   ability to exercise prudent business judgement and there is zero
                   probability that the Department and stakeholders would permit
                   promulgation of such a policy.

                   Management also commented that the FAR recognizes the need for
                   professional judgement. Judgement is contemplated, indeed
                   required, in the application of cost principles by the contracting
                   officer. Prudent business judgement would neither be required, nor
                   permitted if contracting officers were required to compare contractor
                   health benefit costs to a national average as the primary test of
                   reasonableness.

AUDITOR COMMENTS   Management's comments are not responsive to the finding or
                   recommendations.

                   We are unable to report on the trend in overall benefit costs incurred
                   by the Department's contractors because we did not examine this
                   broad measure of costs. However, we did measure one of its

Page 8                                            Recommendations and Comments
         significant components, health benefit costs for active contractor
         employees. The report documents the reduction in these health benefit
         costs over the last few years. However, the report demonstrates that
         further reductions are necessary if those costs are to approach the level
         being paid by similar commercial firms.

         Management's objection to Recommendation 1 is based on the premise
         that the FAR and DEAR prohibit the evaluation of individual
         components of benefit costs. However, FAR 31.205-6(b) states that
         compensation will be considered reasonable if each of the allowable
         elements making up the employee’s compensation package is
         reasonable. Further, the regulation states that contracting officers may
         challenge the reasonableness of any individual element of
         compensation paid.

         Also, Recommendation 1 does not ask contracting officers to rigidly
         adhere to a single quantitative standard as the only element in
         determining reasonableness. The recommendation merely asks that
         contracting officers be required to periodically use a quantitative cost
         benchmark to evaluate contractor health benefit costs. In order for the
         contracting officers to make rational decisions about the reasonableness
         of costs, they should be measured against quantitative cost benchmarks.

         Finally, with regard to Recommendation 1, Management believes that if
         the contracting officers evaluate health benefit costs for reasonableness
         it will interfere with the contractors' ability to attract and retain
         qualified employees. This position contradicts the letter from the
         Director, Office of Contractor Human Resource Management to the
         Manager of the Savannah River Operations Office, dated November 3,
         1995. The letter stated that the implementation of the recommendations
         contained in the consultant's study would still leave intact an attractive
         benefit program for Westinghouse employees. We agree with the
         Director’s original assessment that contractor health benefit costs can
         be reduced without impairing the contractors’ ability to offer
         competitive health benefit plans as a means of attracting and retaining
         qualified employees.

         Management's disagreement with Recommendation 2 is based on its
         prediction that it would not be possible to obtain stakeholder approval
         to issue such a policy. However, the Department has already issued the
         exact same policy for its contractors in DOE Order 350.1 Chapter V,
         Employee Benefits. The Order states that “…when the contractor per
         capita cost per full-time employee is greater than 5 percent above the


Page 9                                     Recommendations and Comments
          comparator for other organizations, the contractor shall submit to the
          Contracting Officer a corrective action plan to achieve conformance
          with the range of acceptability…. The plan shall include specific benefit
          plan changes and a timetable for implementation and shall be approved
          by the Contracting Officer.” Recommendation 2 would merely require
          contracting officers, as Departmental representatives, to insure cost
          studies are performed, and used to control costs.

          Finally, neither of our Recommendations would prohibit the exercise of
          prudent business judgement. In fact, purposefully setting a policy that
          ignores cost as one of the measures of reasonableness would be the
          opposite of prudent business judgement.




Page 10                                     Recommendations and Comments
Appendix

SCOPE         The audit was performed from March 15 to August 2, 1999. The
              auditors reviewed health benefit costs for CY 1998 at three contractors:
              Westinghouse Savannah River Company in Aiken, South Carolina;
              Lockheed Martin Energy Systems in Oak Ridge, Tennessee; and the
              University of Chicago-Argonne National Laboratory in Chicago,
              Illinois.

METHODOLOGY   To accomplish the audit objective, we:

                   •   Reviewed Report DOE/IG-350, Audit of Health Benefit Costs
                       at the Department's Management and Operating Contractors;

                   •   Researched Federal regulations governing the reasonableness
                       of contractors’ health benefit costs;

                   •   Reviewed the Department’s contracts with the contractors
                       listed above;

                   •   Reviewed health benefit plans for the contractors listed above;

                   •   Evaluated the Value Studies performed for the contractors
                       listed above;

                   •   Used national benchmark measures to determine the
                       reasonableness of overall contractor employee benefit
                       program costs, and more specifically the reasonableness of
                       contractor employee health benefit plan costs;

                   •   Compared the results of the sites’ Value Studies with
                       Chamber of Commerce Study results;

                   •   Compared the benefit studies performed by the sites to a
                       national consulting firm’s benchmarks;

                   •   Determined the rate of health care inflation between CYs 1996
                       and 1998; and,

                   •   Estimated the amount of unreasonable costs incurred by the
                       Department in CY 1998 as a result of not evaluating and
                       approving employee health benefit costs using national norms.




Page 11                                                    Scope and Methodology
          The audit was performed in accordance with generally accepted
          Government auditing standards for performance audits and included
          tests of internal controls and compliance with laws and regulations to
          the extent necessary to satisfy the audit objective. Accordingly, we
          assessed the internal controls over health benefit costs at the three sites.
          Because our review was limited, it would not necessarily have disclosed
          all internal control deficiencies that may have existed at the time of the
          audit.

          We relied on computer-generated data provided by the sites’ contractors
          regarding employee health benefit costs. An evaluation of the general
          operational controls at the sites showed that yearly expenditure reports
          sent to the Department’s Contractor Human Resources Management
          understated employee health costs. Since these costs were understated,
          there is no assurance that other reported costs are accurate. As a result,
          our estimate of unreasonable costs is qualified, accordingly.

          As part of our review, we evaluated the Department’s expectations and
          performance measures for M&O contractors’ employee health benefit
          plans. We did not identify any instances where the Department did not
          comply with the Government Performance and Results Act of 1993.

          We held an exit conference with the Office of Contract and Resource
          Management on March 9, 2000.




Page 12                                                  Scope and Methodology
                                                                               IG Report No. DOE/IG-0470

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                       following alternative address:


                   Department of Energy Management and Administration Home Page
                                        http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
